                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A13020032                                                                      Page 1 of 1



                We identified a proposal 1 with possible plagiarism during a proactive review of awarded NSF
        proposals. Closer examination of the allegation revealed that the largest single source document
        identified was a publication authored by the sole PI2 on the NSF award. The remaining sources of
        significance were authored by the subcontractor referred to in the proposal as the "other PI." 3 The
        text copied from the "other PI's" was not enclosed in quotation marks or offset in any manner to
        indicate it was not the PI's original work. However, documentation in the award file demonstrated
        that the reviewers and the NSF program officer recognized and treated the "other PI" as a co-author
        of the proposal. Thus, there is insufficient evidence to support an allegation of plagiarism or that
        NSF's merit review process was otherwise misled.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11102)
